August 3, 2010

ANTHONY J. VEGLIANTE
EXECUTIVE VICE PRESIDENT, CHIEF HUMAN RESOURCES OFFICER

KELLY M. SIGMON
VICE PRESIDENT, ENGINEERING

SUBJECT: Management Advisory – eIDEAS Timeliness and Transparency
        (Report Number DA-MA-10-003)

This management advisory presents the results of our review of the eIDEAS program
(Project Number 10YG023DA000). Our objective was to identify opportunities for the
U.S. Postal Service to enhance the timeliness of the eIDEAS process and transparency
of the resulting management actions. We conducted this self-initiated review based on a
hotline complaint. See Appendix A for additional information about this review.

The eIDEAS program is a web-based application that allows Postal Service employees
to submit ideas online or at one of the kiosks located in processing plants. The Postal
Service encourages employees to contribute constructive ideas to improve customer
satisfaction, generate revenue, increase productivity, and improve competitiveness.
Given the current financial condition of the Postal Service, it is appropriate to evaluate
the timeliness and transparency of the eIDEAS program to help management identify
those ideas with tangible benefits.

Conclusion

We found the eIDEAS program was not timely and management’s resulting actions
were not transparent. Specifically, while the eIDEAS program guide stipulates
evaluators assess ideas within 7 days of submission, we found level 1 evaluators took
an average of 2.2 years to process employee ideas, while level 2 and level 3
evaluators1 took an average of 1.1 years and .57 years, respectively, to process ideas.
Additionally, we noted that while the number of ideas submitted has grown by 26
percent from fiscal years (FY) 2004 to 2009, the number and value of awards has
declined by more than 88 percent. Although, we did not assess the quality of employee
suggestions received, this trend suggests further evaluation is warranted by
management to measure program success.


1
  Level 1 idea evaluation is typically performed by the supervisor, postmaster, or manager to whom the submitter
reports. Level 2 evaluation is performed by the submitting organization’s executive (or designee). Level 3 evaluation
is performed by a representative of the headquarters functional area to which the idea most closely relates.
eIDEAS Timeliness and Transparency                                      DA-MA-10-003



Our survey of employees who submitted ideas revealed that untimely evaluations,
insufficient management commitment and communication, and insufficient program
transparency were perceived as inhibitors to the program’s success. Program
management indicated that system limitations such as electronic reminders and
employee separations contributed to the backlog in open statuses. These challenges
prevent the full realization of the eIDEAS program’s purpose, which is to improve
customer satisfaction, generate revenue, increase productivity, and enhance
competitiveness.

In our benchmarking analysis, we found that federal and private entities have similar
idea programs. The National Aeronautics and Space Agency (NASA), the Department
of Defense (DOD), and the state of Washington evaluate and/or reward ideas within 20
to 45 days of submission. The DOD considers a benefit-to-award ratio when
implementing its ideas program. NASA, the DOD, and the state of Washington also use
a committee to evaluate ideas.

In regard to the hotline compliant, Postal Service Engineering developed a solution to
the Delivery Barcode Sorter (DBCS) problem with damaged stacker gates that was field
tested and repair kits were procured. Additionally, the Postal Service Maintenance
Technical Support Center (MTSC) is currently working on a maintenance bulletin to
inform field sites of the fix. The OIG hotline office will communicate with the complainant
as appropriate. See Appendix B for our detailed analysis of this topic.

We recommend the executive vice president, chief Human Resources officer, in
coordination with participating vice presidents:

1. Re-evaluate the Postal Service’s level of commitment to the eIDEAS program and
   implement program modifications as appropriate.

2. Take action to improve the timeliness of the evaluation process and the
   transparency of resulting management actions.




                                             2
eIDEAS Timeliness and Transparency                                    DA-MA-10-003



Management’s Comments

The Postal Service agreed with the first recommendation and will take appropriate
action to resolve the identified issues by August 30, 2010. Specifically, management
agreed to reinforce its commitment to the eIDEAS program and will issue a letter to all
Postal Service officers reemphasizing the importance of the program and the need to
communicate this message to all levels of the organization. Management is also
exploring the addition of eIDEAS to the Postal Service’s LiteBlue website which is
expected to expand the reach of the program.

The Postal Service also agreed with the second recommendation and will take
appropriate action to resolve the identified issues by January 30, 2011. Management
agreed to build upon steps previously taken to address timeliness, which include
eIDEAS programming enhancements, reactivation of automatic reminders, and
development and delivery of program coordinator training. Additionally, management
stated that the letter to all Postal Service officers mentioned above will stress the
importance of acting on all employee ideas promptly and diligently, as well as the need
to thoroughly document in eIDEAS all evaluation actions, test results, and target
timeframes for implementation. Furthermore, management is reviewing the eIDEAS
program policy for possible revision to more clearly define program criteria,
responsibilities, time lines, and processes. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the management advisory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                            3
eIDEAS Timeliness and Transparency                                   DA-MA-10-003



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-4546.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Edward L. Gamache
    Cathy L. Lowry
    Vinay K. Gupta
    Cullen S. Kiely
    Corporate Audit Response Management




                                           4
eIDEAS Timeliness and Transparency                                                            DA-MA-10-003



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The eIDEAS program is a web-based application that allows Postal Service employees
to submit ideas online or at kiosks located in the processing plants. The Postal Service
encourages employees to contribute constructive ideas to improve customer
satisfaction, generate revenue, increase productivity, and improve competitiveness.
Ideas and suggestions are routed to the appropriate supervisor with an e-mail and
regular reminders announcing that an idea is waiting for review. Supervisors can
approve ideas online and forward them to the district, area, and national levels.2

The eIDEAS system is also linked to eAwards3 so that when an idea is implemented,
supervisors can easily initiate the process for rewarding the employee. According to
program guidelines, as a proposed idea works its way through the approval process, the
employee who submitted the idea receives e-mail updates on the idea’s progress and
can check its history and status at any time. If the submitting employee believes an idea
has been incorrectly rejected, they can request a re-evaluation online.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify
opportunities for the Postal Service to
enhance the timeliness of the eIDEAS
process and transparency of the
resulting management actions. To
accomplish our objective we conducted
interviews with the program
coordinators and managers and
examined relevant data. Specifically,
we analyzed the eIDEAS database to
assess the timeliness of evaluating
submitted ideas and assessed the level
of awards. As depicted in Illustration 1,
there were 21,393 ideas — 9,996 ideas
in closed status; 3,788 in returned
status; 109 re-evaluation status; 5,360                         Illustration 1: Distribution of Open & Closed Ideas from
in evaluation status; and 2,140 in                                            June 18, 2003, to April 21, 2010
submitted status.




2
  Local supervisors usually complete level 1 evaluations. District or area managers usually complete level 2
evaluations. National - level personnel or functional vice presidents usually complete level 3 evaluations.
3
  The eAwards program gives supervisors the authority and ability to deliver “on-the spot” award certificates up to a
certain dollar value to employees, tying rewards and recognition more closely to performance.


                                                           5
eIDEAS Timeliness and Transparency                                                          DA-MA-10-003



       Closed status indicates an idea has received a final evaluation and whether or
        not it is being adopted at any level.

       Returned status indicates more information is needed on a submitted idea.

       Re-evaluation status occurs when an employee submits a one-time request to re-
        evaluate an idea that was closed without being adopted.

       Evaluation status is when an idea is evaluated for its appropriateness and
        eligibility and its merits; and/or whether to close, adopt locally, or escalate the
        idea for further consideration or return it for more information.

       Submitted status shows that an employee has submitted an idea for evaluation.

We focused on the 11,397 ideas with an open status of either submitted, in evaluation,
returned, or in re-evaluation.

We also conducted an e-mail survey of Postal Service employees who submitted ideas
through the eIDEAS system as well as benchmarked government and private entities.

We conducted this review from April to July 2010 in accordance with the Quality
Standards for Inspections4. We discussed our observations and conclusions with
management on May 18, 2010. We did not test the data reliability of the eIDEAS system
data.

PRIOR AUDIT COVERAGE

There was no prior audit coverage related to this project.




4
  These standards were last promulgated by the President’s Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978,
as amended by the IG Reform Act of 2008, created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.


                                                         6
eIDEAS Timeliness and Transparency                                                                              DA-MA-10-003



                                         APPENDIX B: DETAILED ANALYSIS

eIDEAS Evaluation Timeliness and Award Trends

Although the eIDEAS program allows 7 days to evaluate ideas, our analysis of open
status cases showed ideas remained with level 1 evaluators for an average of 2.2
years.5 Ideas remained with level 2 and level 3 evaluators for an average of 1.1 years
and .57 years respectively. Ideas were in open status for an average of 2 years, in
submitted status for an average of 1.5 years, and in evaluation status for an average of
1.7 years as demonstrated in Chart 1. The eIDEAS program manager indicated the
backlog of ideas in open status occurred due to system glitches relating to electronic
reminders and the difficulty in closing ideas from employees now separated. Although
these causes may contribute to untimely evaluations, the extensive time taken to close
an idea could bring management’s commitment to the success of the eIDEAS program
into question.

           Chart 1: Ideas Evaluation Timeliness By Category and Approval Level
                                         (Open Statuses: June 18, 2003 – April 21, 2010)
                                                    Evaluation Level
                                     Level 1                   Level 2                    Level 3

            Idea Status                                                                                                   Average
                                        Average of                   Average                   Average of
                            Count of                                                                        Total Count   of Days
                                         Days in      Count of      of Days in     Count of     Days in
                              Idea                                                                          of "OPEN"        in
                                         Current     Idea Status     Current     Idea Status    Current
                             Status                                                                           Status      "OPEN"
                                          Status                      Status                     Status
                                                                                                                           Status
            In Evaluation    4,571             686      636              361        153             188        5,360        634
            Requested
            Re-Evaluation     77               796       23              539         9              660        109          731
            Returned         3,669         1,059        119              771                                   3,788       1,050
            Submitted        1,621             591      400              388        119             201        2,140        531
            Grand Total      9,938             809     1,178             415        281             209       11,397        754

                                                     Source: eIDEAS Database.



When an idea is approved,
management can award non-
cash and cash awards up to
$10,000. The complainant and
surveyed employees expressed
concern about management’s
commitment to the eIDEAS
program.

As depicted in Illustration 2, since
FY 2004, while the number of
submissions has increased, the
number of awards has decreased                                                                 Illustration 2 - Award Trends
along with the corresponding payouts.

5
    2.2 yrs = 809 days; 1.1 yrs = 415 days; .57 yrs = 209 days; 2 yrs = 754 days; 1.5 yrs = 531days; 1.7 yrs = 634 days.


                                                                         7
eIDEAS Timeliness and Transparency                                     DA-MA-10-003



Although, we did not assess the quality of employee suggestions received, this trend
suggests further evaluation is warranted by management to measure program success.

Survey of Participating Employees

To corroborate the hotline complaint and highlight potential causes for the opportunities
noted, we surveyed employees who had submitted ideas that were in open status.
Twenty-seven percent (67 of 250) of employees responded to our survey. The survey
results revealed similar employee frustration and perceived inhibitors to the program’s
success. Specifically:

      Fifty-two percent (35 of 67) of respondents believe management could process
       the submitted ideas more timely. For example, one respondent indicated that
       management should provide “Faster return on ideas submitted.”

      Forty-six percent (31of 67) of respondents think management is not serious
       about the eIDEAS program. One respondent asserted, “Employees rarely have
       resources available to them to determine revenue potential and/or expenses
       associated with implementation. If the idea is good, then let the executives
       (versus supervisors) determine if it should go forward.”

      Sixty-four percent (43 of 67) expressed a desire for improved communications.
       One respondent said “Have management communicate with the employee if the
       idea is not accepted.”

      Forty-three percent (29 of 67) expressed concern with the lack of transparency
       with the evaluation process. For example, one respondent stated “After each
       step is processed both reviewer and applicant should be notified.”

eIDEAS Program Benchmarks

We benchmarked the Postal Service’s eIDEAS program against government entities
including NASA, DOD, and the state of Washington. All institutions we reviewed have
an employee suggestion program.

In reference to timeliness, we sought the average time an institution takes to evaluate
and award an idea. Our benchmarking results revealed:

      NASA, DOD, and Washington evaluate and/or reward employees for proposed
       ideas within 20 to 45 days of submission.

      DOD measures tangible and intangible benefits for an awarded idea.
       Additionally, DOD uses a benefit-to-award ratio to establish program consistency.

      NASA, DOD, and Washington state use a committee to evaluate idea
       submissions rather than using individual evaluators, as the Postal Service does.


                                            8
   eIDEAS Timeliness and Transparency                                    DA-MA-10-003




Overall, these benchmarks suggest the Postal Service has the opportunity to enhance the
timeliness of the eIDEAS process and the transparency of resulting management actions.

eIDEAS Complaint Resolution

On February 24, 2010, a Postal Service mechanic filed a hotline complaint in reference to
an idea he submitted via the eIDEAS system. Initially, his idea to save DBCS maintenance
costs was locally evaluated and accepted and later closed on September 2007.
Subsequently, the complainant requested a re-evaluation of his idea and his submission
was reopened in June 2009. The same evaluator closed the case a second time in July
2009, citing the same reason, which was that another solution was preferred. To date, the
complainant has not seen management implement the alternate solution on the workroom
floor.

According to Postal Service management, Engineering tested an earlier eIDEA which was
similar to the idea sited in the hotline complaint. Engineering developed a satisfactory
design concept for a two-piece stacker gate which was deployed to the field in limited
quantities in early 2010. Components required for the modification of DBCS stacker gates
are currently available for field deployment. Additionally, the Postal Service MTSC is
working on a maintenance bulletin to inform field sites of the fix for damaged DBCS stacker
gates.




                                              9
eIDEAS Timeliness and Transparency                        DA-MA-10-003




                      APPENDIX C: MANAGEMENT’S COMMENTS




                                     10
eIDEAS Timeliness and Transparency        DA-MA-10-003




                                     11
eIDEAS Timeliness and Transparency        DA-MA-10-003




                                     12
